  July 31, 2003




Financial Management

Controls Over DoD Medicare
Eligible Retiree Health Care
Fund Investments
(D-2003-119)




       Office of the Inspector General
                    of the
           Department of Defense
                                     Constitution of
                                    the United States

     A Regular Statement and Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                                Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil./reports or contact the
  Secondary Reports Distribution Unit of the Audit Followup and technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or Fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DFAS                  Defense Finance and Accounting Service
MERHCF                Medicare Eligible Retiree Health Care Fund
MRHB                  Military Retirement Health Benefits
          Office of the Inspector General of the Department of Defense
Report No. D-2003-119                                                        July 31, 2003
   (Project No. D2003FJ-0005)

                 Controls Over DoD Medicare Eligible Retiree
                       Health Care Fund Investments

                                 Executive Summary
Who Should Read This Report and Why? Defense personnel who are responsible for
managing funds provided to reduce the Military Retirement Health Benefits (MRHB)
liability should read this report. The report discusses how the Defense Finance and
Accounting Service invests funds from the Medicare Eligible Retiree Health Care Fund
(MERHCF).

Background. This audit was performed in support of the Chief Financial Officers Act of
1990 (Public Law 101-576), as amended by the Government Management Reform Act
of 1994 (Public Law 103-356), and the Federal Financial Management Improvement Act
of 1996 (Public Law 104-208).

The MERHCF was established to provide funds to pay for health benefits for Medicare
eligible DoD military retirees, retiree family members, and survivors. On
October 1, 2002, the MERHCF received a deposit of $14.4 billion provided by a
Treasury warrant. The $14.4 billion was intended as the first of fifty annual payments to
amortize the present value of $405.6 billion of the $592 billion unfunded FY 2002
MRHB liability. The Defense Finance and Accounting Service is responsible for
managing the daily fiscal operations of the MERHCF.

In addition, the DoD MERHCF Board of Actuaries determined that the Military
Departments needed to provide normal contributions to the MERHCF throughout
FY 2003. As of March 31, 2003, the MERHCF had collected $4.0 billion in normal cost
contributions and spent $2.4 billion on health care. The MERHCF investments in
Treasury securities earned $106.2 million during the first 6 months of FY 2003, and as of
March 31, 2003, the MERHCF investments totaled $16.1 billion. Normal contributions
will be approximately $8.0 billion for FY 2003. On October 1, 2002, 20-year securities
were yielding 4.8 percent, 10-year securities were yielding 3.7 percent, and 3-month
securities were yielding 1.6 percent.

Results. As of March 31, 2003, the Defense Finance and Accounting Service (DFAS)
invested the initial $14.4 billion contribution to the MERHCF in short-term securities
instead of long-term securities. As a result, the MERHCF did not realize $206.7 million
in potential investment income during the first 6 months of FY 2003 and continues to not
earn at least $34 million a month in investment income. By investing in long-term
securities versus current practices, DoD can realize an estimated $6.9 billion in additional
investment income over the next 6 years. The lost investment income will have a direct
and material effect on the size of the Military Retirement Health Benefits liability in
future years.
Management Comments and Audit Response. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer nonconcurred with the recommendations. The
Under Secretary stated that DFAS is complying with the current investment policy. The
Under Secretary also stated that the MERHCF Board of Actuaries provides oversight of
DFAS implementation of the investment policy and that additional oversight procedures
are not necessary because there is no indication that the current oversight is not working.
We respectfully disagree that DFAS is complying with the investment policy because a
strategy of investing in only short-term securities is not the most prudent course of
action. Further, the Board of Actuaries does not provide true oversight of DFAS
implementation of the investment policy because the Board is advisory and not
accountable for DFAS investment decisions. The continuing loss and potential future
loss of interest revenue to the Fund indicates the process is not working. We request that
the Under Secretary of Defense (Comptroller)/Chief Financial Officer provide additional
comments by September 2, 2003. See the Finding section of the report for a discussion
of management comments and the Management Comments section of the report for the
complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                        i

Background                                                              1

Objectives                                                              1

Finding
     Investment of Funds                                                2

Appendixes
     A. Scope and Methodology                                           12
          Management Control Program Review                             13
          Prior Coverage                                                13
     B. Report Distribution                                             14

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer   17
Background
    This audit was performed in support of the Chief Financial Officers Act of 1990
    (Public Law 101-576), as amended by the Government Management Reform Act
    of 1994 (Public Law 103-356), and the Federal Financial Management
    Improvement Act of 1996 (Public Law 104-208).

    The Medicare Eligible Retiree Health Care Fund (MERHCF) was established on
    October 1, 2002, with the deposit of $14.4 billion provided by a Treasury warrant.
    The $14.4 billion was intended as the first of fifty annual payments to amortize
    the present value of $405.6 billion of the $592 billion unfunded Military
    Retirement Health Benefits (MRHB) liability. The Defense Finance and
    Accounting Service (DFAS) is responsible for managing the daily fiscal
    operations of the MERHCF.

    In addition, the DoD MERHCF Board of Actuaries determined that the Military
    Departments needed to provide normal contributions to the MERHCF throughout
    FY 2003. As of March 31, 2003, the MERHCF had collected $4.0 billion in
    normal cost contributions and spent $2.4 billion on health care. The MERHCF
    investments in Treasury securities earned $106.2 million during the first 6 months
    of FY 2003, and as of March 31, 2003, the MERHCF investments totaled
    $16.1 billion. Normal contributions will be approximately $8.0 billion for
    FY 2003. Similar outlays and normal contributions are projected to continue into
    the future.

    FY 2003 is the first year that DoD is using accrual budgeting to pay for health
    care for beneficiaries who are eligible for Medicare. In an accrual budget, costs
    including pensions and medical benefits for retirees are recognized during the
    years in which the employees are working, not when the benefits are actually
    paid.


Objectives
    The objective of the audit was to determine whether DoD established effective
    quality controls over the estimation of the MRHB liability. We also reviewed
    compliance with applicable laws and regulations. See Appendix A for a
    discussion of the scope, methodology, and management control program review.




                                         1
            Investment of Funds
            As of March 31, 2003, DFAS invested the initial $14.4 billion
            contribution to the MERHCF in short-term securities instead of long-term
            securities. The investments in short-term securities occurred because
            DFAS did not comply with trust fund investment policy that required
            investments to be made in 10- to 20-year securities. As a result, the
            MERHCF did not realize $206.7 million in potential investment income
            during the first 6 months of FY 2003 and continues to not earn at least
            $34 million a month in investment income. By investing in long-term
            securities versus current practices, DoD can realize an estimated
            $6.9 billion in additional investment income over the next 6 years. The
            lost investment income will have a direct and material effect on the size of
            the Military Retirement Health Benefits liability in future years.


Criteria
     Public Law. Title 10, chapter 56, “DoD Medicare Eligible Retiree Health Care
     Fund,” January 2, 2001, established the MERHCF.

     Title 10, section 1111 states:

                There is established on the books of the Treasury a fund to be known
                as the Department of Defense Medicare Eligible Retiree Health Care
                Fund (hereafter in this chapter referred to as the Fund), which shall be
                administered by the Secretary of the Treasury. The Fund shall be used
                for the accumulation of funds in order to finance on an actuarially
                sound basis liabilities of the Department of Defense under Department
                of Defense retiree health care programs for Medicare-eligible
                beneficiaries.

     Title 10, section 1117 states:

                The Secretary of Treasury shall invest such portion of the Fund as is
                not in the judgment of the Secretary of Defense required to meet
                current withdrawals. Such investments shall be made in public debt
                securities with maturities suitable to the needs of the Fund as
                determined by the Secretary of Defense, and bearing interest at rates
                determined by the Secretary of Treasury, taking into consideration
                current market yields on outstanding marketable obligations of the
                United States of comparable maturities. The income on such
                investments shall be credited to and from a part of the Fund.




                                              2
The Department of the Treasury has delegated responsibility for development of
an investment strategy to each program agency. The Department of the Treasury
Operating Circular, “Responsibilities Relating to Government Investment
Accounts and Investment on Government Series Treasury Securities,”
December 23, 2002, requires a program agency to develop an investment strategy
as follows:

       In developing the investment strategy, the program agency should practice
       a ‘buy and hold’ policy. The program agency should, not less frequently
       than annually, estimate the timing and amounts of disbursements of the
       federal program over the following year, and develop a strategy for
       purchasing Treasury specials in principal amounts and having maturities
       that approximately coincide with those disbursement estimates (e.g.,
       market-based Treasury bills for short-term disbursing needs; market-based
       Treasury special notes and bonds for longer-term disbursing needs).

DoD Directive 6070.1, “DoD Medicare Eligible Health Care Trust Fund,”
July 17, 2002, requires the Under Secretary of Defense (Comptroller)/Chief
Financial Officer to direct the Director, DFAS to coordinate with the Treasury to
establish other appropriate procedures to manage the daily fiscal operations of
MERHCF.

DoD Operational Policy. The following investment policy was applicable to the
MERHCF according to DFAS and the Office of Actuary, DoD.

       •   Investments shall consist of U.S. Treasury nonmarketable market-
           based certificates, bills, notes, and bonds. Investments of 1 year or
           less may be required to cover short-term needs. While maximization
           of return on investments shall be pursued, liquidity with low risk is
           important for monthly forecast requirements.

       •   The majority of the investment portfolio shall consist of securities in
           excess of 1 year. Investments shall be made to maximize the total
           return on investments, given the term structure of interest rates.

       •   Investments shall normally be in the 10- to 20-year range. This will
           give the Fund the benefit of higher long-term rates and allow the Fund
           some liquidity in its long-term portfolio.

       •   The purchase and sale of securities will be made to coincide with the
           needs of the Fund, but deviation shall be allowed at the time of major
           yield shifts in the market.

       •   Estimated monthly receipts and expenditure of the Fund shall be
           compared to actual data so as to minimize idle cash and maximize
           investments.




                                     3
Investment of Annual Contributions to the MERHCF
    The MERHCF was established on October 1, 2002, with the deposit of
    $14.4 billion from a Treasury warrant. The $14.4 billion was intended as the first
    of fifty annual contributions to amortize the present value of $405.6 billion of the
    $592 billion unfunded MRHB liability. For FYs 2003 through 2009, actuarial
    estimates showed that $111.8 billion in contributions to the MERHCF are planned
    (see Table 1)

                   Table 1. Projected Annual Contributions
                       From Treasury to the MERHCF

                      Fiscal Year             Amount (in Millions)*
                         2003                   $ 14,369.0
                         2004                     14,871.9
                         2005                     15,392.4
                         2006                     15,931.2
                         2007                     16,488.8
                         2008                     17,065.9
                         2009                     17,663.2

                         Total                  $111,782.4

                * The contribution to the fund increases by
                  3.5 percent each year based on the decisions of the
                  MERHCF Board of Actuaries.



    The contributions are intended to reduce the MRHB liability and provide funds
    for health care benefits for DoD Medicare eligible military retirees, retiree family
    members, and survivors.

    In addition to the contributions, the MERHCF will receive payments from the
    Military Departments for Service members who are not retired in order to accrue
    expenses as their future health benefits are earned. The normal contributions are
    determined by the DoD Actuary at the beginning of each fiscal year. For FY
    2003, the MERHCF will receive normal contributions from the Military
    Departments based on the number of Service members and their future benefits.
    As of March 31, 2003, the MERHCF received $4.0 billion in normal
    contributions and made $2.4 billion in payments from the MERHCF to direct-care
    treatment facilities ($1.0 billion) and purchased-care providers ($1.4 billion). As
    a result, the MERHCF balance increased from $14.4 to $16.1 billion because
    normal contributions exceeded payments by $1.6 billion ($4.0 billion less $2.4
    billion), and the MERHCF earned $106.2 million during the first 6 months of FY
    2003.

                                          4
    Normal contributions will be approximately $8.0 billion for FY 2003 based on the
    first 6 months contributions and should increase in the future unless force levels
    are reduced.

    The Office of Management and Budget projected $4.4 billion in outlays from the
    MERHCF in FY 2003. The $4.4 billion in expected FY 2003 outlays is $3.6
    billion less than the expected FY 2003 normal contributions. The Office of
    Management and Budget projected that outlays from the MERHCF will be $4.8
    billion in FY 2004 and $5.0 billion in FY 2005. As a result, annual normal
    contributions will continue to cover the disbursement needs of the MERHCF for
    the foreseeable future.

    Despite the projections indicating the needs of the fund would be met through
    normal contributions, DFAS invested all of the $16.1 billion that will not be
    needed to meet upcoming requirements in short-term Treasury bills with
    maturities of less than 1 year.


Compliance with Investment Policy
    DoD investment policy was consistent with the Public Law provisions that
    required investments to be made in public debt securities with maturities suitable
    to the needs of the MERHCF. However, DFAS did not comply with the DoD
    investment policy that required the majority of the MERHCF to be invested in 10-
    to 20-year Treasury securities. As of March 31, 2003, DFAS invested the initial
    $14.4 billion contribution to the MERHCF in daily and other short-term
    (3- to 6-month) securities instead of a mixture of 10 - to 20-year long-term
    securities as required by DoD investment policy. DFAS believed that long-term
    interest rates would rise in the future. DFAS believed that the gradual decline in
    long-term interest rates over the last 10 years (see graph) represented a major
    yield shift in the market and wanted to wait for the rates to rise.

    The graph shows that the more dramatic shift was related to yields in short-term
    securities. Specifically, during FYs 2002 and 2003, 10- to 20-year interest rates
    experienced a gradual decline. However, short-term interest rates experienced a
    much steeper decline.




                                         5
                        Treasury Yields - Short Term vs. Long Term

                                                                                                     8

                                                                                                     7

                                                                                                     6

                                                                                                     5

                                                                                                     4 % Yield

                                                                                                     3

                                                                                                     2

                                                                                                     1

                                                                                                     0
 1993     1994   1995     1996      1997      1998      1999    2000     2001     2002        2003
                                              Year                     Long-Term Average
                                                                       Short-Term Average



   The long-term average is composed of 10- and 20-year securities. The short-term
   average is 3- and 6-month securities. Table 2 provides the data that were used in
   the graph except for FY 2003. Table 2 also shows a calculation of the average of
   the differences between the long-and short-term rates during the past 10 years.
   During that period, long-term rates were on average 1.613 percent greater than
   short-term rates.


        Table 2. Average Percentage Yields on Securities (Past 10 Years)


                                                                                       Difference
             Short Term           Average            Long Term          Average         Between
Year     3 Month 6 Month         Short Term       10 year 20 Year      Long Term       Averages
2002      1.635      1.716          1.676         4.613    5.432         5.022           3.346
2001      3.479      3.453          3.466         5.021    5.632         5.326           1.861
2000      6.000      6.174          6.087         6.030    6.231         6.131           0.044
1999      4.778      4.946          4.862         5.646    6.198         5.922           1.060
1998      4.907      5.020          4.964         5.263    5.716         5.489           0.526
1997      5.201      5.390          5.296         6.354    6.687         6.520           1.225
1996      5.146      5.291          5.218         6.444    6.826         6.635           1.417
1995      5.660      5.818          5.739         6.574    6.955         6.764           1.025
1994      4.372      4.827          4.600         7.085    7.490         7.288           2.688
1993      3.066      3.219          3.143         5.866    6.286         6.076           2.934

                                                     Average Difference (1993-2002)         1.613

                                              6
    On August 23, 2002, the DoD Medicare Eligible Retiree Health Care Board of
    Actuaries questioned DFAS on how it intended to invest assets from the
    MERHCF. Although it had not consulted with economists or investment
    advisors, DFAS did not plan to follow the DoD investment policy of investing in
    long-term securities. DFAS informed the Board of Actuaries that it planned to
    invest the MERHCF in 2- to 3-year securities until interest rates rise in the future.
    However, DFAS did not invest the MERHCF in 2- to 3-year securities. It
    continued to invest in daily and short-term securities.


Potential Investment Income
    DFAS should not have invested the $14.4 billion initial contribution to the
    MERHCF in daily and short-term securities. DFAS should have adhered to the
    DoD investment policy by investing in 10- to 20-year Treasury securities. By
    remaining invested in short-term securities, the MERHCF lost $206.7 million in
    potential investment income during the first 6 months of FY 2003 and continues
    to lose at least $34 million a month in investment interest. In addition, if long-
    term interest rates do not increase in future years to a level acceptable to DFAS,
    DFAS plans to continue to invest annual contributions to the MERHCF in short-
    term securities. However, DFAS was unable to provide us with a rate that would
    be acceptable.

    In contrast, DFAS is also responsible for administering investments in the
    Military Retirement Fund but invested those funds in longer-term securities. As of
    April 2003, DFAS invested 82 percent of the Military Retirement Fund in
    securities with terms greater than 1 year according to Treasury records.
    Specifically, DFAS invested 18 percent of the Military Retirement Fund in
    securities with terms less than 1 year, 41 percent of the Military Retirement Fund
    in securities with terms greater than 1 year but less than 10 years, and 41 percent
    of the Military Retirement Fund in long-term bonds with terms of at least 10
    years.

    During the first 6 months of FY 2003, the MERHCF earned $99.7 million on the
    initial $14.4 billion contribution and $106.2 million for the entire MERHCF. The
    MERHCF would have earned $306.4 million if the $14.4 billion had been
    invested in 10- to 20-year securities as required by DoD policy. The lost
    investment income averaged $34 million per month ($206.7 million divided by 6)
    and continued as of April 30, 2003.

    In addition, unless action is taken, DFAS will invest future contributions to the
    MERHCF in short-term securities. Because short-term securities earn
    1.613 percent on average less than long-term securities, DoD will lose an
    estimated $6.9 billion in investment income over the 6-year Future Years Defense
    Program beginning in FY 2004 (see Table 3).




                                          7
    Table 3. Future Contributions That Are Not Needed to Meet Projected
     Requirements and Their Potential Additional Investment Income if
               Invested in Long-Term Securities (10-20 Year)
                               ($ in millions)

                                          Number       Compound         Potential
     Fiscal Year       Amount of            of          Interest       Investment
    Contribution      Contribution         Years        Factor 2         Income
        20031         $ 14,369.0             6           .10077         $1,447.9
        20041           14,871.9             6           .10077          1,498.6
        2005            15,392.4             5           .08329          1,282.1
        2006            15,931.2             4           .06610          1,053.0
        2007            16,488.8             3           .04917            810.8
        2008            17,065.9             2           .03252            555.0
        2009            17,663.2             1           .01613            284.9

        Total          $111,782.4                                       $6,933.3
1
    FYs 2003 and 2004 are subject to 6 years of investment because both contributions
    will be available for investment for FYs 2004 through 2009.
2
    This factor is calculated using the standard mathematical formula for the
    compounding of interest assuming a 1.613 percent difference between short-term
    and long-term rates. The factor increases for the number of years of the
    investment. For example, funds invested in FY 2009 will earn 1.613 percent
    additional interest for 1 year whereas funds invested for FY 2008 will earn
    3.252 percent additional interest (1.613 percent compounded for 2 years).




    The MERHCF will receive approximately $8.0 billion in normal cost
    contributions from the Military Departments during FY 2003 that will be
    sufficient to cover FY 2003 payments for health care. The normal contributions
    will continue in the future. However, the loss of $6.9 billion in estimated
    investment income will have a direct and material effect on the size of the MRHB
    unfunded liability in future years because DFAS will not have the additional
    interest income to invest that could reduce the liability. DFAS did not present a
    target interest rate or time frame when it would change its investment strategy.
    DFAS informed us it planned to continue to invest in short-term securities until
    interest rates rise.

    Accordingly, we concluded that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer should direct DFAS to comply with DoD
    investment policy for the MERHCF that focuses on the long-term needs of the
    MERHCF. The Under Secretary of Defense (Comptroller)/Chief Financial
                                        8
    Officer should also issue oversight procedures to ensure that DFAS complies with
    the investment policy.


Recommendations, Management Comments, and Audit
  Response
    We recommend that Under Secretary of Defense (Comptroller)/Chief
    Financial Officer:

          1. Direct the Director of the Defense Finance and Accounting Service
    to comply with DoD investment policy for the DoD Medicare Eligible Retiree
    Health Care Fund.

    Management Comments. The Under Secretary of Defense (Comptroller)/Chief
    Financial Officer nonconcurred and stated that the Department’s investment
    policy does not require investments to be made in 10- to 20-year Treasury
    securities. The Department’s investment policy states, “The purchase and sale of
    securities will be made to coincide with the needs of the Fund, but deviation shall
    be allowed at the time of major yield shifts in the market.” The Under Secretary
    stated that the DFAS Trust Fund Accounting Directorate considered the
    approximately 7 percent decrease in yields from the mid-1980s to September 30,
    2002, a major yield shift in the long-term market. Because long-term yields were
    so low at the time, the DFAS Trust Fund Accounting Directorate made the
    decision to purchase short-term U.S. Treasury securities and overnight securities.
    Further, the Department is trying to maximize its investment yield during a period
    of low long-term rates.

    The Under Secretary of Defense (Comptroller)/Chief Financial Officer stated that
    the MERHCF has no historical data to track expenditure data. Thus, if the total
    $14.4 billion was invested in long-term securities and estimated expenditure data
    accounted for higher than expected amounts, the possibility exists that the long-
    term securities would have to be sold to cover the shortfall, which could produce
    a loss of principal to the fund.

    The Under Secretary stated that DFAS uses a publication from Bank Credit
    Analyst (BCA) Research as a guide for strategic planning of its investment
    portfolio. With yields at all time lows, DFAS purchased short-term securities
    with the anticipation of rates going higher in the near future. The Under
    Secretary stated, “Our contention is we are not experts in predicting future yields,
    but we want to make sound financial decisions based upon relevant data available
    to us.”

    Audit Response. We do not agree with the Under Secretary’s comments. DFAS
    investment personnel stated that they were calculating the yield shift over a 20-
    year period. We believe that the use of a long span of time to show a major yield
    shift is not realistic. Federal Reserve research indicates that major yield shifts in
    the rates are normally evident when short-term rates are equal to or greater than
    long-term rates rather than when the rates fluctuate over a long period of time. As
    shown in the Graph on page 6, a major yield shift occurred in the year 2000 when
                                          9
short-term and long-term rates were nearly equal. Since 2000, the yields from
long-term rates have shifted higher versus short-term rates and as of
June 30, 2003, the yields from long-term rates were 3.1 percent higher than the
yields from short-term rates.

The Department’s investment policy allows DFAS to select investments having
maturities suitable to the cash disbursement needs of the program financed with
the account. Additionally, the MERHCF had no historical data to track
expenditure data. However, we believe there is low risk that long-term securities
would have to be sold to cover a shortfall that could produce a loss of principal to
the fund. Actuarial projections provided to the Fund managers show that funds
will be available. Specifically, in addition to the annual direct contributions from
Congress of $14.4 billion for 2003 and $14.9 billion in 2004, the MERHCF will
receive approximately $8 billion in normal contributions during FY 2003 and
$8.3 billion in FY 2004. These normal contributions will continue in future years
and are more than sufficient to cover anticipated disbursements from the
MERHCF. We included data in the report that show that the Office of
Management and Budget projected $4.4 billion in outlays from the MERHCF in
FY 2003. The $4.4 billion in expected FY 2003 outlays is $3.6 billion less than
the expected FY 2003 normal contributions. The Office of Management and
Budget projected that outlays from the MERHCF will be $4.8 billion in FY 2004
and $5.0 billion in FY 2005. As a result, annual normal contributions will
continue to cover the disbursement needs of the MERHCF for the foreseeable
future. DFAS needs to determine how much of the surplus normal contributions
should be invested in long-term securities.

We continue to believe that DoD should have invested the initial $14.4 billion
amortization contribution in accordance with DoD investment policy that states,
“Investments shall normally be in the 10- to 20-year range. This will give the
Fund the benefit of higher long-term rates and allow the Fund some liquidity in its
long-term portfolio.” The DoD investment policy allows more liquidity by
recommending 10- to 20-year investments rather than 30-year investments. The
investment policy is also consistent with Department of Treasury policy and
would ensure that investments were matched to the long-term needs of the
MERHCF.

We also do not agree with the decision to purchase short-term securities with the
anticipation of long-term rates moving higher in the future. DFAS made its
decision for FY 2003 based on its interpretation of research provided by a private
company. However, on December 11, 2002, the research company warned that
the Federal Reserve Board was concerned with deflation and stated “Moreover,
contrary to market expectations, the Fed is unlikely to raise rates in 2003.” In
June 2003, the research company also provided warnings of possible deflation
and lower interest rates. The research company warnings were consistent with
Federal Reserve Board pronouncements and economic forecasts. On June 25,
2003, the Federal Reserve Board reduced the Federal Funds rate by another .25
percent.




                                     10
We do not agree with the DoD position to continue to invest in daily and other
short-term securities throughout FY 2003. DoD needs to formulate a strategy that
focuses on the long-term needs of the MERHCF. We ask that the Under
Secretary of Defense (Comptroller)/Chief Financial Officer reconsider his
position and provide additional comments.

      2. Issue oversight procedures to ensure that the Defense Finance and
Accounting Service complies with the investment policy for the DoD
Medicare Eligible Retiree Health Care Fund.

Management Comments. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer nonconcurred and stated that the MERHCF Board of Actuaries
reviews the investment strategy and its results annually. Additional oversight
procedures are not necessary since there is no indication that the current oversight
is not working.

Audit Response. The MERHCF Board of Actuaries is an advisory board and
does not have authority over DoD investment decisions. The Board of Actuaries
is not accountable for DFAS investments and so it does not provide oversight.
Further, annual reviews do not constitute adequate oversight. For example, on
August 23, 2002, DFAS provided information about the DFAS investment policy
and strategy to the DoD Medicare Eligible Retiree Health Care Board of
Actuaries. However, as indicated in the report, the Board was informed in the
August 2002 briefing that DFAS planned to invest in 2 to 3 year securities. This
was never done, and the Board did not provide the oversight necessary to ensure
that the decision was implemented. DFAS also did not provide details about its
investment policy to the Board.

We believe that the oversight should be performed by the Office of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer. The Under Secretary
needs to issue oversight procedures that ensure that there is adequate monitoring
of the DFAS investment decisions. Specifically, oversight procedures should
ensure that DFAS complies with Department of Treasury guidance. DFAS is
required to estimate the timing and amounts of disbursements from the MERHCF
not less frequently than annually. Additionally, the oversight procedures should
require oversight and review of any determination of major market yield shifts,
ensure DFAS has a strategy to properly manage risk, contain written decision
rules on when to invest, and provide procedures that specify that DFAS must
retain enough of a contingency to protect against any potential shortfall that
would result in the loss of principal.

We ask that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer reconsider his position and provide additional comments.




                                     11
Appendix A. Scope and Methodology
   The objective of the audit was to determine whether DoD established effective
   quality controls over the estimation of the Military Retirement Health Benefits
   liability. However, on April 21, 2003, Deloitte and Touche LLP (Certified Public
   Accountants) was awarded a contract to audit the Medicare Eligible Retiree
   Health Care Fund for FY 2003. The statement of work on the contract requires
   Deloitte and Touch LLP to complete an assessment on the Military Retirement
   Health Benefits liability. As a result, we limited the scope of our audit to an issue
   that will not be addressed by the Deloitte and Touche LLP contract. We also
   reviewed compliance with applicable laws and regulations related to the
   MERHCF.

   We reviewed the DFAS procedures related to the day-to-day management of the
   MERHCF. We completed analyses of prevailing interest rates. We estimated the
   amount of potential investment income for the MERHCF for the 6-year Future
   Years Defense Program. We used actuarial documents provided by the Office of
   the DoD Actuary in our analyses.

   We performed this audit from October 2002 through May 2003 in accordance
   with generally accepted government auditing standards.

   Use of Computer-Processed Data. We verified DFAS trial balance records as of
   March 31, 2003, to Department of Treasury reports. The data were reliable
   enough for our audit objectives. We did not complete a formal assessment of
   DFAS systems or Department of Treasury systems. We also did not test the
   general and application controls.

   Use of Technical Assistance. The Quantitative Methods Division of the Office
   of the Deputy Inspector General for Auditing reviewed the methodology we used
   in determining the potential lost investment income.

   The methodology we used to estimate the lost investment income over 6 years
   employs the average difference between long-term and short-term interest rates as
   a constant. If this difference were greater than the average in the first years of the
   timeframe, then the actual lost income would be greater than our estimate.
   Conversely, if the difference were smaller in the first years, the actual loss would
   be less than the estimate. We recognize the existence of more sophisticated
   methodologies that would address the potential variability of the difference in
   interest rates from year to year. However, considering the relatively short time
   period over which we estimated, we believe that the methodology we used
   adequately illustrates the potential loss.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the DoD financial management area.




                                        12
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28,1996, require DoD organizations to implement a comprehensive
    system of management controls that provide reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. This is the first year of
    the MERHCF, and DoD was in the process of establishing management controls.
    Therefore, the MERHCF was not included in prior-year management control
    reports.

    Adequacy of Management Controls. We identified a material weakness for the
    Under Secretary of Defense (Comptroller)/Chief Financial Officer as defined by
    DoD Instruction 5010.40. Management controls were not adequate to ensure
    there was a prudent investment strategy for funds contributed to the MERHCF.
    Recommendations 1 and 2, if implemented, will allow the MERHCF to realize
    appropriate investment income in the current year and future years. A copy of the
    report will provided to the senior official responsible for management controls for
    the Under Secretary of Defense (Comptroller)/Chief Financial Officer.

    Adequacy of Management’s Self-Evaluation. This is the first year of the
    MERHCF, and DoD was in the process of establishing management controls.
    Therefore, the MERHCF was not included in prior-year management control
    evaluations.


Prior Coverage
    The General Accounting Office issued GAO-02-1061R, “Health Care Fund
    Regulations (DoD),” on August 30, 2002. The report is available on the internet at
    www.gao.gov.




                                        13
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Health Affairs)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Defense Finance and Accounting Service

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          14
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        15
Under Secretary of Defense (Comptroller)/Chief
Financial Officer Comments




                      17
18
19
Team Members
The Defense Financial Auditing Service Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
James L. Kornides
Stuart D. Dunnett
Curt W. Malthouse
John R. Williams
Frank C. Sonsini
Ann L. Thompson
